March 21, 2008

DAVID L. SOLOMON
VICE PRESIDENT, NEW YORK METRO AREA OPERATIONS

ALEXANDER E. LAZAROFF
CHIEF POSTAL INSPECTOR

SUBJECT: Audit Report – Postal Service Emergency Preparedness Plans for the New
         York Metro Area (Report Number SA-AR-08-005)

This report presents the results of our self-initiated audit of the U.S. Postal Service
emergency preparedness (EP) plans for the New York Metro Area (Project Number
07YG061SA002). Our objective was to determine whether Postal Service EP plans
were completed in accordance with federal and Postal Service guidance and addressed
risk vulnerabilities. We conducted this audit because EP is a critical area for the Postal
Service. See Appendix A for additional information about this audit.

Overall, we concluded that Postal Service EP plans were not always completed in
accordance with federal and Postal Service guidance and did not fully address risk
vulnerabilities.

Integrated Emergency Management Plan (IEMP) Templates

IEMP templates did not address federal and Postal Service guidance for emergency
plans. This occurred because Postal Service management did not establish sufficient
requirements in the IEMP templates to ensure applicable federal and Postal Service
guidance was addressed. As a result, responsible EP officials may not be fully
prepared for disasters and employees, customers, the mail, and critical assets may be
exposed to increased risk. See Appendix B for our detailed analysis of this issue.

We recommend the Chief Postal Inspector:

      1. Establish sufficient requirements in the Integrated Emergency Management
         Plan templates to address federal and Postal Service guidance. Specifically,
         the Integrated Emergency Management Plan templates should address
         Postal Service responsibilities under the National Response Plan (NRP), area
         and headquarters level functions during emergencies, federal exercise and
         drill plan requirements, and consolidated annexes.
Postal Service Emergency Preparedness                                            SA-AR-08-005
 Plans for the New York Metro Area


Management’s Comments

Management agreed with our finding and recommendation and stated they are revising
the IEMP to address federal and Postal Service guidance. The revised final IEMP is
scheduled for dissemination and implementation by June 30, 2008. Management’s
comments, in their entirety, are included in Appendix F.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation, and the corrective actions should resolve
the issue identified in the finding.

Completion and Approval of IEMPs

District and facility IEMPs were not properly completed and approved as required by
Postal Service guidance. This occurred because Postal Service management did not
establish sufficient internal controls to ensure that responsible personnel completed
these tasks. When IEMPs are not completed and approved in accordance with federal
and Postal Service guidance, Postal Service employees, customers, the mail, and
critical assets are exposed to increased risk. See Appendix B for our detailed analysis
of this issue.

We recommend the Chief Postal Inspector:

       2. Establish a formal policy to identify Postal Service facilities that require an
          Integrated Emergency Management Plan.

Management’s Comments

Management agreed with our finding and recommendation and stated they have drafted
a management instruction identifying the types of facilities that will require an IEMP.
The final management instruction is scheduled for dissemination and implementation by
June 30, 2008.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation, and
the corrective actions should resolve the issue identified in the finding.

We recommend the Chief Postal Inspector:

       3. Establish requirements for mandatory emergency preparedness training,
          including periodic refresher training for personnel responsible for emergency
          preparedness at the area, district, and facility level.




                                              2
Postal Service Emergency Preparedness                                           SA-AR-08-005
 Plans for the New York Metro Area



Management’s Comments

Management partially agreed with the finding and stated that mandatory emergency
preparedness training was established during the rollout of the Biohazard Detection
System. Additionally, management stated that the Postal Service has participated in
national and local drills and training exercises that are multi-disciplinary and multi-
jurisdictional. Management agreed with the recommendation and stated they are
revising the IEMP to identify additional requirements for training, testing, and exercises.
The revised final IEMP is scheduled for dissemination and implementation by June 30,
2008.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation, and
the corrective actions should resolve the issue identified in the finding. We
acknowledge that management required employees to receive training during the rollout
of the Biohazard Detection System, and the Postal Service has participated in national
and local drills and training exercises. However, our interviews with 29 personnel
responsible for EP indicated that 26 did not complete the minimum suggested training
requirements established by the Postal Service and the Federal Emergency
Management Agency. Additional mandatory training is required to ensure all personnel
responsible for EP can perform their responsibilities effectively. We believe the
additional training management intends to require in the revised IEMP should help
ensure the Postal Service is prepared to respond to the various emergencies that
threaten employees, customers, postal assets, and the mail.

We also recommend the Vice President, New York Metro Area Operations, in
consultation with the Chief Postal Inspector:

       4. Establish and implement emergency preparedness performance measures
          and incorporate them into performance plans for facility heads.

Management’s Comments

Management agreed with the finding and recommendation. Management stated the
revised IEMP template will establish a performance measure for installations and
districts that require the installation head to approve the IEMP annually. The response
further indicated that the installation emergency manager and planning section chief (or
designated alternate) are responsible for updating the IEMP annually or as
circumstances dictate, and that the district homeland security coordinator is responsible
for comprehensive review of the IEMP annually. Management stated the IEMP is
validated at least quarterly based on the findings of an after action report associated
with lessons learned from an event or exercise.




                                             3
Postal Service Emergency Preparedness                                         SA-AR-08-005
 Plans for the New York Metro Area


In follow-up correspondence, management also stated that it is often infeasible to
incorporate this as a performance measure for facility heads in pay for performance.
The Office of National Preparedness (ONP) has instead built performance measures
into each of their systems and will give incentive awards based on exceeding
performance measures. Management has developed drafts of their National
Preparedness Award System and Performance Measures Assessment Scorecards and
plans to implement them by October 1, 2008.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation, and
the corrective actions should resolve the issue identified in the finding.

We also recommend the Vice President, New York Metro Area Operations, in
consultation with the Chief Postal Inspector, establish and implement additional internal
controls to ensure emergency plans are properly completed and approved. Specifically,
we recommend management:

       5. Establish an area Emergency Management Coordinating Committee to
          provide oversight and assistance to district and facility Emergency
          Management Teams in establishing, implementing, and reviewing Emergency
          Management Plans.

Management’s Comments

Management partially agreed with the recommendation. Management stated that the
establishment of the Emergency Management Coordinating Committee (EMCC) is
clearly delineated in the Administrative Support Manual. The functionality of the
committee may not have been clear, but the oversight and assistance to district and
facility emergency management teams (EMT) remain part of the foundation of the area
operating staff. Risks to and vulnerabilities in the area are periodically addressed and
discussed through venues other than a formal committee.

Management stated they have since established a formal emergency coordinating
committee that will function in accordance with Postal Service policy. However,
management did not provide the date that the emergency coordinating committee was
established.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation, and
the corrective actions should resolve the issue identified in the finding.




                                            4
Postal Service Emergency Preparedness                                       SA-AR-08-005
 Plans for the New York Metro Area


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea L. Deadwyler, Director,
Inspection Service and Facilities, or me at (703) 248-2100.


 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

cc: Zane M. Hill
    John H. Bridges III
    Michele L. Culp
    Katherine S. Banks




                                           5
Postal Service Emergency Preparedness                                                                  SA-AR-08-005
 Plans for the New York Metro Area


                      APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The U.S. Postal Service, an independent establishment of the executive branch of the
U.S. government, operates like a business and generates about $70 billion in revenue
annually.1 The Postal Service is responsible for the development of plans for actions
necessary to maintain itself as a viable part of the federal government during
emergencies.

The Postal Inspection Service is responsible for protecting the mail, Postal Service
assets, and millions of customers. As the emergency coordinator for the Postal Service,
the Chief Postal Inspector is responsible for coordinating emergency planning and civil
preparedness programs and providing training and guidance to responsible EP
personnel.

Consolidation of Postal Service Homeland Security Responsibilities. In March 2007, the
Chief Postal Inspector announced that in a continuing effort to eliminate redundancies
and reduce costs, all homeland security responsibilities were consolidated under the
Postal Inspection Service. These responsibilities included EP and aviation security.
These groups realigned to form the ONP within the Postal Inspection Service. ONP’s
key responsibilities include incident management, infrastructure protection, aviation mail
security, public health preparedness, and performance measures.

ONP is responsible for developing Postal Service EP policy and guidance, including the
IEMP templates. Its mission is to maintain a high state of national preparedness across
the Postal Service enterprise through a comprehensive and coordinated approach to
planning, integration, and support.

Integrated Emergency Management Plan. In January 2004, the Postal Service
established the IEMP as the comprehensive plan for mitigating, preparing for,
responding to, and recovering from any natural or man-made disaster. The goal of the
IEMP is to improve coordination of planning and response activities among functional
areas, minimize duplication of planning efforts, and establish a standardized emergency
management process.

The IEMP integrates the Emergency Action Plan (EAP),2 Continuity of Operations Plan
(COOP),3 and annexes for specific hazards (such as hurricanes, floods, and wildfires)
into one plan. It also establishes EMTs and defines team roles and responsibilities.
Districts and facilities are required to tailor standardized district and facility IEMP
templates to address specific processes and procedures and other information pertinent


1
  United States Postal Service Annual Report 2006.
2
  The EAP provides evacuation-specific tasks and procedures for the facility.
3
  The COOP provides operational tasks and procedures for moving operations to an alternate facility.




                                                         6
Postal Service Emergency Preparedness                                                                       SA-AR-08-005
 Plans for the New York Metro Area


to their site. District and facility managers are required to update their IEMPs at least
once a year.

Homeland Security Presidential Directive (HSPD) 5. HSPD-5, Management of
Domestic Incidents, dated February 28, 2003, directs the Secretary of Homeland
Security to develop and administer a single, comprehensive National Incident
Management System (NIMS) and use the NIMS to develop and administer a NRP.
NIMS provides a consistent nationwide template to enable federal, state, local, and
tribal governments and private-sector and nongovernmental organizations to work
together effectively and efficiently to prepare for, prevent, respond to, and recover from
domestic incidents.

National Response Plan.4 The NRP, dated December 2004, is the federal
government‘s unified, all-discipline, all-hazard plan that aligns federal coordination
structures, capabilities, and resources for domestic incident management. The NRP
identifies the Postal Service as a support agency for seven emergency support
functions (ESF),5 including transportation and mass care housing and human services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether Postal Service EP plans were completed in
accordance with federal and Postal Service guidance and addressed risk vulnerabilities.

To accomplish our objective, we interviewed Postal Service and Postal Inspection
Service officials, including officials from the ONP, facility heads, and district and facility
EMTs. We reviewed applicable EP policies and procedures and assessed related
internal controls. We also assessed mitigation and preparedness activities for EMTs.

We conducted audit fieldwork at Postal Service Headquarters, seven judgmentally6
selected Postal Service critical facilities,7 and four districts (see Appendix C) located in
the New York Metro Area. We also reviewed training records from the National Training
Database and official Emergency Management Institute transcripts to determine
whether key personnel responsible for EP completed the minimum suggested training
requirements established by the Postal Service and the Federal Emergency
Management Agency (FEMA). Although we did not test the accuracy of computer-
generated data, we discussed the training records with applicable personnel and
consider the data sufficiently reliable to support the opinions and conclusions in this
report.

4
  In September 2007, the Department of Homeland Security (DHS) issued a draft National Response Framework
which, when approved, will supersede the NRP.
5
  ESFs describe how the Postal Service should coordinate processes and requirements to ensure efficient and
effective incident management during national emergencies.
6
  We selected facilities based on mail volumes, number of employees, and facility type.
7
  Critical facilities are facilities the Postal Inspection Service considers essential for the delivery of vital postal
services.




                                                             7
Postal Service Emergency Preparedness                                           SA-AR-08-005
 Plans for the New York Metro Area



We conducted this performance audit from June 2007 through March 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on November 28 and
December 11, 2007, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

In the past 3 years, the OIG issued nine reports regarding Postal Service EP plans. Six
of the nine related to our review of the Postal Service's response to Hurricanes Katrina
and Rita. In these reviews, we found that while the Postal Service took noteworthy
actions in responding to the hurricanes, opportunities existed to enhance EP planning
and response. Management generally agreed with our recommendations to enhance
EP planning and response.

In addition, the Government Accountability Office (GAO) issued three testimonies on
federal EP planning and one report on Postal Service EP planning. In its report, the
GAO provided and Postal Service management generally agreed with three
recommendations regarding training and guidance for suspicious mail. Also, the White
House issued a report on lessons learned from Hurricane Katrina and federal EP
planning.

                                                          Report        Final Report
                    Report Title
                                                          Number            Date

                                          OIG Reports
 Handling of a Suspicious Powder Incident at the
                                                        SA-AR-07-005     July 11, 2007
 Wichita Falls Mail Processing Center
 Handling of a Potentially Explosive Ordnance at the
                                                        SA-AR-07-001    March 29, 2007
 Dallas Bulk Mail Center
 Postal Service Emergency Preparedness for
                                                        SA-AR-06-007    August 3, 2006
 Hurricanes Katrina and Rita
 Hurricane Katrina – The Effectiveness of the Postal
                                                        NL-AR-06-006    June 29, 2006
 Service Transportation and Logistics Network
 Postal Inspection Service Emergency Preparedness for
                                                        SA-AR-06-005     June 5, 2006
 Hurricane Katrina
 National Change of Address – Emergency
                                                        IS-AR-06-005    March 30, 2006
 Preparedness
 Mail Processing Operations in the Wake of Hurricanes
                                                        NO-MA-06-002    March 27, 2006
 Katrina and Rita
 Postal Service Actions to Safeguard Employees from
                                                        HM-AR-06-002   February 15, 2006
 Hurricane Katrina
 Postal Inspection Service’s Emergency Preparedness     SA-AR-05-001    January 5, 2005




                                                8
Postal Service Emergency Preparedness                                             SA-AR-08-005
 Plans for the New York Metro Area


                                                            Report         Final Report
                      Report Title
                                                            Number             Date

                                  GAO and White House Reports
 Homeland Security: Preparing for and Responding to
                                                          GAO-07-395T      March 9, 2007
 Disasters
 Emergency Preparedness and Response: Some
 Issues and Challenges Associated with Major              GAO-06-467T    February 23, 2006
 Emergency Incidents
 Hurricane Katrina: Providing Oversight of the Nation’s
                                                          GAO-05-1053T   September 28, 2005
 Preparedness, Response, Recovery and Activities
 Guidance on Suspicious Mail Needs Further
                                                           GAO-05-716        July 2005
 Refinement
 White House Report – The Federal Response to
                                                             None          February 2006
 Hurricane Katrina: Lessons Learned




                                                    9
Postal Service Emergency Preparedness                                                            SA-AR-08-005
 Plans for the New York Metro Area



                          APPENDIX B: DETAILED ANALYSIS

Integrated Emergency Management Plan Templates

IEMP templates did not address federal and Postal Service guidance for emergency
plans. For example, the templates did not:

    •   Address NRP requirements for the Postal Service’s responsibilities to provide
        ESFs in the event of a national emergency. The Postal Service requires the
        IEMP to be the comprehensive plan for the Postal Service to prepare for and
        respond to national emergencies.

    •   Integrate area and headquarters level functions during emergencies, and did not
        include roles and responsibilities for area and headquarters EP officials. The
        Postal Service requires area and headquarters personnel responsible for EP to
        coordinate their planning and response activities in the IEMP.

    •   Require exercise and drill plans covering multiple years and including full-scale
        exercises involving multi-disciplinary and multi-jurisdictional participants, in
        accordance with DHS guidance.8

    •   Consolidate incident-specific annexes into broader categories to increase the
        Postal Service’s capability to respond rapidly and effectively to a variety of
        incidents. The IEMP template contains 27 incident-specific annexes, many of
        which could apply to a single incident. For example, during a severe storm, the
        following annexes could apply: floods and flash floods, high winds, power
        outages, and serious injuries or fatalities. However, DHS established seven
        annexes to address similar risks and vulnerabilities in the NRP, in contrast to the
        Postal Service’s 27 annexes. See Appendix D for a list of Postal Service
        annexes.

In our review of EP plans, we determined that Postal Service management did not
establish sufficient requirements in the IEMP templates to ensure applicable federal and
Postal Service guidance was addressed.




8
  According to guidance in the NIMS and the Homeland Security Exercise and Evaluation Program Manual, dated
February 2007, emergency plans should cover multiple years and include full-scale exercises involving multi-
disciplinary and multi-jurisdictional participants.




                                                      10
Postal Service Emergency Preparedness                                                                       SA-AR-08-005
 Plans for the New York Metro Area


District and Facility IEMP Completion and Approval

IEMPs were not properly completed and approved as required by Postal Service
guidance. For example:

    •       One facility did not have an IEMP at all and two did not have signed and
            approved final IEMPs.

    •       None of the approved facility IEMPs provided guidance for the movement of
            employees in their COOPs.9

    •       None of the approved district and facility IEMPs contained safe zone maps or
            appropriate guidance for Annex 2B (Floods and Flash Floods). Although
            personnel identified annexes applicable to their facilities, they did not always
            complete each annex as required.

This occurred because Postal Service management did not establish sufficient internal
controls to ensure that responsible personnel completed these tasks. Specifically,
management did not:

        •    Establish a formal policy to clarify which postal facilities require IEMPs. (See
             Appendix E for the status of IEMPs at the districts and facilities reviewed.)
             Although guidance in the district IEMP template states that district managers
             are responsible for obtaining IEMPs for Level 2410 and above facilities, the
             guidance does not clearly identify facilities that require IEMPs.

        •    Establish requirements for mandatory training for responsible personnel to
             ensure that IEMPs are properly completed. Twenty-six of 29 personnel
             responsible for EP did not complete the minimum suggested training
             requirements established by the Postal Service and FEMA. According to GAO
             internal control standards, training should be aimed at developing and retaining
             employees’ skill levels to meet organization needs.11

        •    Develop EP performance measures for facility heads to ensure that IEMPs are
             properly completed and approved. None of the facility heads we interviewed
             had EP performance measures. According to GAO internal control standards,
             establishing appropriate performance measures and indicators helps ensure
             that employees accomplish management’s directives and organizational
             objectives.


9
  The IEMP requires EP officials to identify transportation providers for the possible movement of employees to
alternate sites.
10
   The facility level is determined by the EAS grade of the facility head. All the facilities we reviewed were critical
facilities and were level 24 or higher.
11
   Standards for Internal Controls in the Federal Government (GAO/AIMD-00-21.3.1), dated November 1999.




                                                            11
Postal Service Emergency Preparedness                                                              SA-AR-08-005
 Plans for the New York Metro Area


     •    Establish an area Emergency Management Coordinating Committee to provide
          oversight and assistance to district and facility EMTs in establishing,
          implementing, and reviewing IEMPs in accordance with postal guidance.12

When Postal Service EP plans are not completed and approved according to federal
and Postal Service guidance, employees, customers, the mail, and critical assets are
exposed to increased risk.




12
  Administrative Support Manual 13 (dated July 1999 and updated with Postal Bulletins revisions through March 29,
2007) requires EMCCs for each area.




                                                        12
Postal Service Emergency Preparedness                                             SA-AR-08-005
 Plans for the New York Metro Area


        APPENDIX C: NEW YORK METRO AREA DISTRICTS AND
                      FACILITIES REVIEWED


                               NEW YORK METRO AREA

                                          DISTRICTS

                                  NAME                               CITY        STATE
       1    Long Island                                          Melville         NY
       2    New York                                             New York         NY
       3    Northern New Jersey                                  Kearny           NJ
       4    Triboro                                              Flushing         NY

                                         FACILITIES
                                  NAME                               CITY        STATE
            Mid-Island Processing and Distribution Center        Melville         NY
       1
            (P&DC)
       2    Morgan P&DC                                          New York         NY
       3    New Jersey Bulk Mail Center (BMC)                    Jersey City      NJ
       4    Brooklyn P&DC                                        Brooklyn         NY
       5    JFK International Service Center (ISC)               Jamaica          NY
            Staten Island Processing and Distribution Facility   Staten Island    NY
       6
            (P&DF)
       7    Queens P&DC                                          Flushing         NY




                                               13
Postal Service Emergency Preparedness                                                      SA-AR-08-005
 Plans for the New York Metro Area


                      APPENDIX D: POSTAL SERVICE IEMP ANNEXES

                                        POSTAL SERVICE ANNEXES

                          ANNEX 1            HUMAN CAUSED EMERGENCIES
                              1A        Biohazard Detection System
                              1B        Anthrax
                              1C        Bloodborne Pathogens
                              1D        Bombs and Bomb Threats
                              1E        Chemical Agents
                              1F        Civil Disorders
                              1G        National Emergency
                              1H        Radiological Emergencies
                              1I        Serious Injury or Fatality
                              1J        Theft, Burglaries, or Robberies
                              1K        Violence in the Workplace
                              1L        Severe Acute Respiratory Syndrome
                                        Toxic Industrial Chemical and Industrial Hazards
                              1M        from Off-site Sources

                          ANNEX 2                NATURAL EMERGENCIES
                              2A        Earthquakes
                              2B        Floods and Flash Floods
                              2C        High Winds and Tornadoes
                              2D        Hurricanes
                              2E        Landslides and Mudflows
                              2F        Thunderstorms and Lightning
                              2G        Volcanoes and Ashfall
                              2H        Wildfire
                              2I        Winter Storms and Driving

                          ANNEX 3           TECHNOLOGICAL EMERGENCIES
                              3A        Building Fire
                              3B        Communications Failure
                              3C        Explosion
                              3D        Hazardous Materials Spills and Leaks
                              3E        Power Outage

       In contrast, the NRP contains seven annexes that address similar risks and
       vulnerabilities: Biological, Catastrophic, Cyber, Food and Agriculture, Mass
       Evacuation, Nuclear/Radiological, and Terrorism Law Enforcement and
       Investigations.




                                                14
Postal Service Emergency Preparedness                            SA-AR-08-005
 Plans for the New York Metro Area


                          APPENDIX E: STATUS OF IEMPs

                                         DISTRICTS

                                                       IEMP Signed
                                        Name          and Approved
                                                         Annually
            1   Long Island                               No
            2   New York                                  Yes
            3   Northern New Jersey                       Yes
            4   Triboro                                   Yes

                                         FACILITIES

                                                       IEMP Signed
                                        Name          and Approved
                                                         Annually
            1   Brooklyn P&DC                             Yes
            2   JFK ISC                                   Yes
            3   Mid-Island P&DC                           No
            4   Morgan P&DC                               Yes
            5   New Jersey BMC                            No
            6   Queens P&DC                               Yes
            7   Staten Island P&DF                        Yes




                                               15
Postal Service Emergency Preparedness                   SA-AR-08-005
 Plans for the New York Metro Area


                    APPENDIX F: MANAGEMENT’S COMMENTS




                                        16
Postal Service Emergency Preparedness        SA-AR-08-005
 Plans for the New York Metro Area




                                        17
Postal Service Emergency Preparedness        SA-AR-08-005
 Plans for the New York Metro Area




                                        18
Postal Service Emergency Preparedness        SA-AR-08-005
 Plans for the New York Metro Area




                                        19
